                                        AUDIT




 GOVTRIP USE AND MONITORING BY THE
 U.S. DEPARTMENT OF THE INTERIOR—
 NATIONAL PARK SERVICE




Report No.: WR-IN-NPS-0008-2013   September 2013
                     OFFICE OF
                     INSPECTOR GENERAL
                     U.S.DEPARTMENT OF THE INTERIOR


                                                                                                  SEP 11 .2013
 Memorandum

 To:                  Jonathan B. Jarvis
                      Director, National Park Service

 From:                Kimberly Elmore ~ ~
                      Assistant Inspector General for Audits, Inspections, and Evaluations

 Subject:             Final Audit Report - GovTrip Use and Monitoring by the U.S. Department of the
                      Interior -National Park Service
                      Report No. WR-IN-NPS-0008-2013

       The U.S. Department of the Interior (DOl) spends approximately $250 million a year
through GovTrip on travel, with the National Park Service (NPS) accounting for almost
$50 million of these funds.

        This report is part of our DOl-wide audit of GovTrip and related travel processes and
procedures. Although the contract for a new system is scheduled to replace GovTrip in
November 2013, we found several significant issues specific to NPS that warrant your attention
under the current GovTrip travel system. We plan to issue an audit report to the Deputy
Secretary that will focus on DOl's planned acquisition and use of a new travel management
system.

        We initiated an audit of DOl's GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation, including DOl's and its bureaus' inability
to freely access travel system reports from GovTrip and the uncertainty of the reliability of the
data in those reports. 1 We determined that the risks presented by these limitations were
significant enough to warrant further review.

        The objective of our audit was to assess DOl's implementation, use, and monitoring of
GovTrip as a part of the overall travel system. Specifically, we assessed DOl's ability to
reconcile its various systems to determine whether data and dollars spent are fair and accurate.
The audit scope encompassed fiscal years 2009 and 2010 and included testing of more than 700
travel vouchers and 300 charge card statements across DOl's bureaus. We also interviewed more
than 100 DOl and bureau personnel involved in the travel process, including approving officials,
intermediate reviewers, and bureau travel leads.

       We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

1 "U.S.   Department ofthe Interior's Video Teleconferencing Usage," WR-EV-MOA-0004-2010. December 2011.



                                Office of Audits, Inspections, and Evaluations I Washington, DC
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We are attaching further detail as to the
objective, scope, methodology, and testing performed during this audit (see Attachment 1).

Background

        Since August 2007, DOI has used GovTrip under a task order from the General Services
Administration’s (GSA) master contract with Northrop Grumman for E-Gov Travel Services
(ETS). GSA’s master contract establishes GovTrip’s general requirements, and DOI’s task order
lays out other specific requirements. GSA’s master contract is set to expire in November 2013, at
which time DOI expects a new system to take the place of GovTrip under a new GSA contract
(ETS-2).

        GSA has selected a single vendor for ETS-2, though the system implementation process
is behind schedule. The bid process was initially delayed by legal challenges from one of the
bidding companies, and a current protest of the award is delaying the process even further. ETS-
2’s general requirements include more internal control points and reporting capabilities, but
much about ETS-2’s specific requirements and controls is still unknown. The unknown and
untested components of the new contract and travel system present both an opportunity and a
responsibility to assess how well NPS uses the current system and to determine ways in which it
can improve prior to the transition to ETS-2.

        Both GovTrip and the pending ETS-2 system have the Federal Travel Regulation (FTR)
as part of their foundation, which provides the regulatory framework for the approval,
processing, and payment of travel costs within the Federal Government. The GovTrip system has
worked in concert with these regulations to facilitate travel planning and payment, as will the
pending ETS-2.

Issues Found During Travel Voucher Testing

       We randomly selected 98 NPS vouchers and their related authorizations from fiscal years
2009 and 2010. The total amount paid from these vouchers was almost $168,000, which included
almost $73,000 paid directly to travelers. We found the following areas of concern.

Missing Documentation and Errors in Expenses

        The FTR requires that receipts be provided for all expenses greater than $75, as well as
all receipts for lodging expenses, regardless of dollar amount (FTR § 301-52.4). We found 13
vouchers that did not have the required supporting documentation for all travel expenses, 10 of
which were missing support for hotel or airfare charges, often two of the highest value expenses
on vouchers. For example, a voucher for a trip that cost NPS more than $3,000, including almost
$2,300 reimbursed to the traveler, included no receipts for any of the trip expenses, and all costs
were claimed as reimbursable to the traveler.

         We also found 14 vouchers that either did not include all of the expenses that were listed
in the travelers’ receipts or the amounts shown on the receipts did not match those claimed on
the voucher. For example, one voucher showed the traveler’s residence in Maryland and the


                                                                                                      2
temporary duty (TDY) location in Hawaii, but the traveler did not claim airfare or rental car
charges even though a parking charge at a hotel was itemized on the voucher. Another traveler
claimed mileage reimbursement for travel covering over 1,100 miles, but verification of the
distance between the residence and TDY locations estimated the actual mileage was less than
700 miles. Two other vouchers had lodging receipts attached with the supporting documentation,
but not all of the lodging expenses were entered as charges on the voucher.

         We also identified other documentation and expense error issues, such as rental car
upgrades without approval or justification and travelers taking leave during TDY travel without
the removal of personal expenses from the trip costs. When vouchers have an additional level of
oversight by trained travel auditors, many errors can be caught and corrected before payment is
processed. Unfortunately, this internal control is not always as effective as it should be. For
example, we found two vouchers that had been audited by NPS travel auditors but still contained
errors; the vouchers had a combined cost of more than $24,000. One voucher included hotel
receipts that did not match the per diem allowances listed in GovTrip and the other voucher did
not include all lodging receipts or other supporting documentation but was still approved.

         In all of these examples, travelers and associated approving officials requested or
approved travel documents with inappropriate travel allowances or failed to document the
justification for variances from normal or reasonable travel allowances. Whenever travelers
request approval for travel plans, the plans must meet the FTR requirements. Further, when
submitting vouchers for travel, travelers are required to abide by the FTR rules, and approvers
must affirm that the vouchers they are approving meet these requirements. In each of these
examples, neither the traveler nor the approver met these requirements of due diligence.

Authorizations Created After Trip Date

        Of the 98 authorizations selected for testing, 18 authorizations were created or approved
after the trip departure date. Although the FTR does permit this practice, FTR § 301-2.1 states:

       …Generally you must have written or electronic authorization prior to incurring
       any travel expense. If it is not practicable or possible to obtain such authorization
       prior to travel, your agency may approve a specific authorization for
       reimbursement of travel expenses after travel is completed.

         Of the authorizations tested, 18 percent failed to meet the general authorization
requirement, but there is no evidence that they met the “not practicable or possible” stated in the
standard above for the exemption. Further, the practice of creating or approving an authorization
after trip departure could contribute to an internal control breakdown if approvers feel pressured
to authorize already incurred travel expenses due to the financial impacts that would otherwise
fall to the employee who would be responsible for all travel costs.

Flagged Vouchers without Appropriate Justification

        It is not unusual for vouchers to be flagged by GovTrip’s automatic auditing system,
indicating a potential problem or error in the voucher. Of the 98 vouchers tested, 19 had



                                                                                                    3
insufficient justifications submitted and approved for flagged items. For example, a voucher with
multiple flagged items showed justifications that simply stated “ok” with no additional
information. Flagged exceptions with inadequate justifications are relatively common, and
supervisors are routinely stamping these documents approved.

Mode of Transportation Not Documented Properly

        Of the 98 vouchers selected for testing, 21 did not indicate the mode of transportation
used to travel to the TDY location. Four additional vouchers included notes mentioning that a
Government-owned vehicle (GOV) was used but did not enter this information correctly in the
voucher, so this data could not be pulled for reporting purposes. Based on the proximity of the
TDY location to the traveler’s duty station or the lack of privately-owned vehicle (POV) mileage
claimed, it is reasonable to assume that these travelers used a GOV, a POV, or traveled with
another person. This missing information results in data that is unreliable for determining the
true cost of travel and the frequency or validity of GOV use for fleet management purposes. In
addition, supervisors cannot make a determination whether the mode of transportation for travel
is advantageous to the Government.

        In addition, FTR § 301-10.4 requires the most advantageous and expeditious method of
transportation be used. In general, the FTR deems a common carrier to be the most expeditious.
We found several trips where a POV or GOV was questionably used, and no documentation was
attached to the authorization or voucher to support that this mode of transportation was the most
advantageous to the Government. For example, 4 vouchers documented the traveler driving to
the TDY instead of flying, even though the drive ranged from 1,000 to 2,000 miles each way.
Even though flying may seem to be more expensive, driving long distances adds lodging, fuel or
mileage reimbursement, and subsistence allowance costs that may add up to more than the cost
of airfare. Two additional vouchers listed the driving destination as NPS backcountry USA,
which makes it impossible to verify transportation costs as accurate and appropriate. The
“Departmental Manual” (DM § 301-11.1) requires that travel to a TDY location must meet a
minimum distance of 50 miles from the traveler’s normal commuting area to qualify for per
diem. One voucher was filed by a traveler who traveled to a TDY location within 25 miles of the
duty station but still improperly claimed lodging and subsistence pay.

Issues Found During Charge Card Statement Testing

        During our audit of the travel process, we learned that the only internal control
mechanism used to ensure the validity of travel charges was the required supervisory review of
charge card statements. When supervisors do not adhere to this internal control, it increases the
risk of management not detecting incorrect or improper charges since there are no other
procedures in place to ensure that supervisors are adequately reviewing and approving both
travel vouchers and charge card statements. Our tests of charge card statements covered a mere
fraction of all NPS travel card statements. Unfortunately, in our selection of 46 charge card
statements across several NPS office locations, we found lax supervisory reviews that presented
significant internal control risk.




                                                                                                    4
Missing Signatures

         Ten of the 46 statements selected for testing, over 22 percent, did not have the required
signatures of both the supervisor and traveler. DOI policy requires supervisors to review
statements and include the signatures of both supervisor and traveler on the statement to show
that all charges have been verified as appropriate and allowable travel expenditures.

Unexplained Transactions

       Of the 46 statements tested, we found 18 statements with expenses that were not reported
in GovTrip or did not match the expenses reported in GovTrip, with questioned costs totaling
over $5,200. 2 Eight statements included airfare that did not match the travelers’ vouchers and six
statements had hotel charges that did not match the travelers’ vouchers. In addition, four
statements had rental car expenses that did not match GovTrip, including one with charges that
were not found in GovTrip and another that was claimed twice. One cardholder had no vouchers
in GovTrip to match against the statement charges and another cardholder did not have any
vouchers in GovTrip with a trip departure date that matched the dates listed on the statement.

        With more than 40 percent of statements in our sample reflecting some sort of
discrepancy, this issue is both a significant internal control weakness and breakdown, not only
because it results in inaccurate accounting and an inability to rely on GovTrip-generated reports
for effective management, but because it is impossible for supervisors to reconcile expenses on
cardholder’s statements with GovTrip vouchers to verify that those expenses were related to an
approved trip. DOI Integrated Charge Card Program Policy Manual, sec. 2.9.2 states that
travelers are required to “[i]nclude a concise, detailed description for each line item . . . or attach
the travel voucher” on their charge card statements to ensure that all transactions are legitimate.
Several of these questionable expenses appeared on charge card statements with the signatures of
both the traveler and the supervisor, which demonstrates that supervisors are not adequately
documenting the verification of travel charges back to source documents, further reducing the
intended effectiveness of this key internal control.

Conclusion
        Because ETS-2 is still several months from coming online, NPS has an opportunity to
improve travel management practices under the current GovTrip system and through the
transition. Improving internal controls now will help strengthen overall travel management
controls when NPS fully transitions to the new travel system.

Recommendations

       1. NPS should require supervisors to—

                  •    verify that vouchers contain supporting documentation as required by the FTR
                       and accurately reflect costs incurred during travel;
                  •    ensure travel authorizations are created and approved prior to travel with the only
                       exception being bona fide emergency travel;
2
    Due to restricted data access issues, this figure is understated and thus does not represent the total impact of questioned costs.



                                                                                                                                         5
   •   review vouchers thoroughly and address any unresolved flagged items;
   •   verify that the use of a POV or GOV is the most advantageous to the Government
       as required by the FTR and clearly document the basis of the decision in the travel
       documents;
   •   disallow per diem for travel that does not meet the minimum requirements set
       forth by DOI travel policy;
   •   verify and approve all charges on charge card statements; and
   •   ensure that both the traveler and supervisor sign and date charge card statements.

Agency Response: In its April 18, 2013 response, NPS stated that the OIG
recommendations were already required by NPS travel policy and that it was already
considering actions to improve controls over its travel program (see Attachment 2). NPS
also stated that it would not be cost effective to implement any additional changes at this
time since the new ETS-2 is scheduled to come online soon. NPS, however, did agree to
consider certain actions after ETS-2 is implemented. NPS also mentioned its
implementation of a corrective action plan as a result of a recent OMB Circular A-123
review of its charge card program, and NPS provided comments on the deficiencies
identified regarding specific authorizations, vouchers, and charge card statements.

OIG Reply: NPS’s recognition and general concurrence regarding the majority of the
report findings confirms the significance of the issues presented. We encourage NPS to
continue to look for ways to improve administration and management of its travel
program in the ETS-2.

We caution, however, not to solely rely on the changes in the new travel system to
determine how it manages its travel program, but rather take an active approach that
focuses on improvements to travel management at the traveler and approving official
levels. In its response, NPS stated that the e-travel system itself is an internal control
mechanism. We agree that an e-travel system has the potential to be a substantive internal
control mechanism, but when the controls within the system are often ignored or avoided,
it becomes an internal control weakness. Taking additional preventative measures would
help to maximize the effectiveness of internal controls in the travel system and ensure
that, regardless of the limitations of the system, travel funds are monitored and expended
in the most appropriate manner possible.

A repeated theme in NPS’ response was that if an error in the travel document did not
directly result in an improper payment to the traveler or vendor, then the error resulted in
no impact and should not be listed as an issue. Further, NPS stated that since it does not
rely on GovTrip data for most of its reporting, it would not matter that the data entered
into the system is incorrect or incomplete. We are concerned with this position, which
reinforces lax travel management habits that become increasingly hard to change over
time. These habits communicate that NPS is not concerned about the accuracy or
completeness of travel system data, an attitude that will likely migrate to the new ETS-2
system.




                                                                                              6
   In addition, NPS stated that it relies on its financial system for travel reporting purposes.
   The financial system, however, can only report what has been paid, not necessarily what
   should have been paid. Until a process has been put in place to reconcile the travel
   system data with the financial system data, NPS will be unable to validate the accuracy
   and completeness of the data it pulls from the financial system. Further, NPS indicated
   that it pulls travel data from various systems but did not explain how it is able to
   reconcile the data to ensure accuracy and completeness. Even though GovTrip is not a
   perfect system, having all travel expenses accurately reported within the system provides
   capabilities to begin understanding the total impact of travel across NPS for both the
   directly reimbursable costs and the more hidden costs, like travel fees and the use of a
   government owned vehicles for transportation.

   Finally, NPS’s supplemental explanation as to why insufficient documentation for travel
   decisions was acceptable conveys that the need to justify travel decisions in a transparent
   way is unnecessary. Adequately documenting justifications for travel decisions made by
   travelers provides indisputable evidence of the rationale for costs incurred, forming the
   basis for decisions by approving officials and others responsible for travel oversight and
   compliance.

   Overall, NPS repeatedly asserted that making the minimal efforts specifically mandated
   in the FTR or DOI policy provided sufficient oversight of travel funds. We disagree and
   caution NPS on taking the position that it will only require or encourage management
   efforts that are unequivocally mandated in regulation or policy outside its control.


2. NPS should make changes to correct existing deficiencies, including creating and
   implementing policy requiring supervisors to reconcile charge card statements with travel
   vouchers.

   Agency Response: In its response, NPS stated that the OIG recommendation was already
   required by NPS policy. NPS did not believe that any additional actions were needed at
   this time (see Attachment 2).

   OIG Reply: In regards to NPS policy, we did not find DOI or NPS policies that required
   supervisors to reconcile charge card statements with travel vouchers, and NPS did not
   identify the existing policy in its response. As such, we are unable to verify that this
   policy exists or that it has been appropriately circulated to all pertinent travel officials.

   In summary, NPS’s response neither fully addressed nor provided specific actions to
   correct the identified deficiencies. NPS disagreed with specific findings identified in the
   report and presented alternative calculations and outcomes for some of the issues
   identified during audit testing. For example, NPS stated that it found 2 of the 18
   authorizations identified as being created or approved after the trip departure date. In
   another example, while NPS acknowledged that expenses for four vouchers were not
   recorded properly and lacked receipts or receipts did not match claimed costs, NPS
   discounted the findings because the expenses were considered to be centrally billed items



                                                                                               7
       and were within allowable per diem amounts. For these examples, as well as others
       presented in NPS’ response, we applaud NPS’s efforts to evaluate the issues and detailed
       testing results that formed the basis of our report findings and recommendations. In
       conducting these efforts, NPS was apparently able to locate some of the information that
       was not available within the GovTrip system or agency records at the time of our review.
       Even with this effort, however, NPS confirmed the vast preponderance of our testing
       results. Further, locating information after an audit is not the same as having the
       information contained in the official system of record at the time we performed our work.

       Given that NPS’s own review of our detailed testing confirmed the vast majority of the
       findings and the need to take corrective actions, we request that NPS reconsider our
       recommendations and provide a response within 30 days, as specified in Appendix 3.

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

        If you have any questions or need more specific information about this report’s findings,
please contact me at 202-208-5592 or Michael P. Colombo, Western Regional Manager, at 916-
978-5653.

Attachments (3)




                                                                                                    8
                                                                                     Attachment 1


Objective, Scope, and Methodology

        We conducted this performance audit from November 2010 through April 2012 in
accordance with Generally Accepted Government Auditing Standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

        We also determined whether NPS had designed and implemented a system of internal
controls or travel management controls to provide reasonable assurance that travel vouchers were
accurate and supported; authorizations were created and approved prior to travel; management is
adequately performing oversight of the travel process; mileage incurred via POV and/or GOV is
advantageous to the Government and clearly documented in the travel authorization; and charge
card statements were verified, approved, and signed by the traveler and supervisor. We found
weaknesses in NPS’s travel management controls. These weaknesses and recommended
corrective actions are discussed in this report and if implemented, the recommendations should
improve NPS’s travel management controls.

Objective

        Our objective was to assess the U.S. Department of the Interior’s (DOI) implementation,
use, and monitoring of GovTrip as a part of the overall travel system. Specifically, we evaluated
DOI’s ability to reconcile its various systems to determine whether data and dollars spent are fair
and accurate. We also performed testing to ensure that any existing internal controls were
sufficient to reasonably minimize risk of fraud and errors.

Scope

        This was a DOI-wide audit of GovTrip and the related travel system. Our testing included
travel vouchers with travel departures starting in fiscal years 2009 and 2010 along with charge
card statements related to those travel vouchers. In conducting our audit, we visited NPS offices
in—

        •   Herndon, VA;
        •   Santa Fe, NM;
        •   Oakland, CA; and
        •   Atlanta, GA.

        Our review of the system included both a performance audit of the current ETS contract
(GovTrip, with a contract period from August 2007 to November 2013) and a review of the
future ETS-2 contract language (contract implementation planned for November 2013). We also
assessed DOI’s integrated charge card program as it relates to travel expenditures.

       During the performance of our audit testing, delays in obtaining access to information
and concerns related to timely reporting necessitated a reduction in the sample size and testing of

                                                                                                  1
                                                                                      Attachment 1


both vouchers and charge card statements. We took steps, however, to allocate the reduction in
testing across bureaus, preserving the integrity of our random and judgmental voucher and
charge card statement samples.

Methodology

         The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases, as we were informed that this would be the most accurate and complete way
to establish the voucher universe by bureau and agency. From this universe, vouchers were
statistically sampled using a stratified methodology, and the associated authorizations were also
examined. Once the testing sample was selected, we performed testing of travel vouchers and
authorizations using the live GovTrip environment. Use of the live GovTrip system environment
for document examination was required since the travel program has no “read only” audit feature
and no alternative data repository is available to DOI.

       Given that our testing was limited to the live data environment, we were not able to
perform “through the system” testing of the software. Thus, we did not perform tests of the
GovTrip system and software, itself. Rather, we structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.

        The National Business Center, Charge Card Support Center (NBC) provided us with the
charge card data. NBC extracted the charge card data from PaymentNet, DOI’s gateway to
integrated charge card program data, which is operated by the contractor J.P. Morgan Chase. We
did not perform a reliability assessment or any system tests for this data since, like GovTrip, this
is a contractor-developed system, so our testing was limited to structured interview questions of
key DOI personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to ascertain the accuracy
and reliability of reconciliation efforts between the GovTrip voucher and related charge card
transactions.

Use of Computer-Processed Data

        We used the GovTrip and Integrated Charge Card databases to identify travel vouchers
and charge card transactions for travel departures starting in fiscal years 2009 and 2010. We did
not perform reliability assessments of the quality of the data because this was outside the scope
of our review. Data from these systems were used for document and transaction selection, and
then reviewed using the electronic and hardcopy records available through DOI. Therefore, the
computer-processed data did not affect the performance of our audit steps.




                                                                                                    2
                                                                                               Attachment 2

                         United States Department of the Interior
                                             NATIONAL PARK SERVICE
                                                  1849 C Street, N.W.
                                                 Washington, D.C. 20240
IN REPLY REFER TO:


F4215(2625)
                                                      APR 18 2013



Memorandum

To:                  Kimberly Elmore, Assistant Inspector General for Audits, Inspections, and Evaluations
                                                             '

From :               C. Bruce Sheaffer, Comptroller     ,'   ()-
                                                               ~
Subject:             Draft Audit Report- GovTrip Use and Monitoring by the U.S. Department of the Interior
                     National Park Service- Report No. WR-IN-NPS-0008-2013

This is the response to the Draft Audit Report and the findings therein.

Missing Documentation and Errors in Expenses (Pages 2 & 3)

The Draft Audit Report states that "we found 13 vouchers that did not have the required supporting
documentation for all travel expenses . . . " The NPS disagrees with the findings on one of these documents.
The documentation provided by OIG via email on March 26, 2013 indicates that the travel voucher for
OPRL8F was missing required supporting documentation. Specifically, "no documentation was included
to support the mileage claimed (140 mi * $.55/mi = $77. This exceeds the $75 minimum for expenses
requiring documentation.)" On this particular voucher no mileage was claimed nor was there any
indication that mileage would be claimed. Furthermore, the FTR does require receipts/documentation for
expenses in the amount of $75 or more; however, the FTR states that documentation is not required for
mileage expense, nor is it possible to obtain receipts from a privately owned vehicle (POV). In
accordance with FTR 301-10.300 through 301-10.302, when a POV is authorized, mileage is reimbursed
at the applicable mileage rate multiplied by the distance measurement determined via paper or electronic
highway mileage guides.

The Draft Audit Report states that "we also found 15 vouchers that either did not include all the expenses
that were listed in the traveler's receipts or the amounts shown on the receipts did not match those
claimed on the voucher." The NPS respectfully disagrees with the finding on four of these documents.
Additionally, on at least four of the other documents, while the expenses were not recorded properly, it is
important to point out that these expenses are considered to be centrally billed items, and were within the
allowable per diem limits. As such, these errors do not result in result in a reimbursement to the employee
or collection of overpayment, and have no financial or reporting impact, as GovTrip is not utilized for
these reporting purposes.




                                                                                                               1
                                                                                                Attachment 2


The Draft Audit Report states "we also identified other documentation and expense error issues ... without
the removal of personal expenses from trip costs." The NPS disagrees with the finding of "travelers
taking leave during TOY travel without the removal of personal expenses from trip costs". The one travel
voucher indicated as having this issue was for Overseas Renewal Tour Agreement Travel which was
authorized in accordance with FTR 302-3.209 through 302-3.224. The expenses claimed on this voucher
are allowable in accordance with FTR 302-3 .101 , Table E.

The Draft Audit Report states "when vouchers have an additional level of oversight by trained travel
auditors, many errors can be caught and corrected before payment is processed. Unfortunately, this
internal control is not always as effective as it should be. For example we found two vouchers that had
been audited by NPS travel auditors but still contained errors ... " The NPS would like to point out that the
primary purpose of the " pre-payment audit" is to ensure that there are no errors with the actual
reimbursement to the employee. In one of the trips, the error was related to centrally billed lodging
expenses that were not recorded properly; however, documentation for all expenses was corrected, and
this error had no financial impact.

Authorizations Created After Trip Date (Page 3)

The Draft Audit Reports states that "of the 98 authorizations selected for testing, 18 authorizations were
created or approved after the trip departure date." Upon review of the documentation provided by OIG,
the NPS found that two of the 18 documents were created and approved before the trip departure date.

The Draft Audit Report states that " it is unreasonable that 18 percent of the authorizations tested actually
failed to meet the general authorization requirement and met the ' not practicable or possible' stated in the
standard". The NPS respectfully disagrees. Because the FTR does not define "generally" in FTR § 301-
2.1 , the NPS believes that if 84 percent of authorizations do meet the standard, the NPS is compliant with
the FTR (84 percent based on two non-errors found by NPS).

Flagged Vouchers without Appropriate Justification (Page 4)

The Draft Audit Report states that "of the 98 vouchers tested, 19 had insufficient justifications submitted
and approved for flagged items. For example, a voucher with multiple flagged items showed
justifications that simply stated "ok" with no additional information and another traveler simply stated
that he "used personal car" when the expenses for the use of privately owned vehicle (POV) were
questioned ." Of the 19 documents indicated as having insufficient justifications, the NPS disagrees with
the finding on 10 of those documents. It is also important to point out that in a majority of the items that
were flagged , neither the FTR, DOl, nor NPS policies have specific requirements as to what is considered
appropriate or sufficient justification. In the situations that the FTR requires for a justification, it only
requires for the justification to be acceptable by the responsible approving official.

For the two items specifically mentioned in the draft, no justification is required for the items with a
justification of "ok". The expenses flagged on this voucher were for ATM fees, which are considered to
be reimbursable expenses and should not be marked as GOVCC-C (centrally billed) items. This is a
system limitation within GovTrip for this expense and several other expenses of similar nature. The
second item, where "another traveler simply stated that he "used personal car" when the expenses for the
use ofPOV were questioned", upon review of this document by the NPS it was found that neither the



                                                                                                                2
                                                                                               Attachment 2


authorization nor the voucher contain any information indicating that the traveler utilized a POV or was
questioned about expenses relating to the use ofPOV. The justification was actually "Personal Credit
Card used." in response to the flag of"Parking on 10/11/10 has a payment method of reimbursable,"
which was the result of the traveler incurring parking charges incident to the use of a rental car that was
properly authorized and claimed.

Mode of Transportation Not Documented Properly (Page 4)

The Draft Audit Rep01t states that "of the 98 vouchers selected for testing, 21 did not indicate the mode of
transportation used to travel to the TDY location. Four additional vouchers included notes mentioning a
government owned vehicle (GOY) was used but did not enter this information correctly in the voucher, so
this data could not be pulled for repotting purposes." The NPS disagrees with the finding on three of
these. Two of the trips were backcountry country travel, and for both trips the actual mode of travel was
"by foot"; no reportable mode of travel was utilized nor were any costs incurred for this mode of travel.
On the third trip, the employee was authorized for and claimed the reimbursement of mileage associated
with the POV .

The Draft Audit Report states that "this missing information results in data that is unreliable for
determining the true cost of travel and the frequency or validity of GOY use for fleet management
purposes." The NPS would like to point out that GovTrip reports are not utilized for determining the true
cost of travel and the frequency or validity ofGOV use for fleet management purposes. The systems
utilized for these determinations are the financial system and the fleet utilization reports, respectively.

The Draft Audit Report states that "in addition, FTR 301-10.4 requires the most advantageous and
expeditious method of transportation be used . In general, FTR deems a common carrier to be the most
expeditious. We found several trips where a POV or GOY was questionably used, and no documentation
was attached to the authorization or voucher to support that this mode of transportation was the most
advantageous to the Government." FTR 301-10.304 provides what expenses are allowable in addition to
POV mileage rate allowances; FTR 301-70.1 contains the provisions for administering the authorization
and payment of travel expenses. Additionally, FTR 301-70.10 I provides the specifics on what factors
must be considered when determining which method of transportation results in the greatest advantage to
the Government. Neither this portion of the FTR, nor any other portion, requires the approving official to
provide documentation on the determination of which method of transportation is advantageous to the
government.

The Draft Audit Repott states that "two additional vouchers listed the driving destination as NPS
backcountry USA, which makes it impossible to verify transportation costs as accurate and appropriate."
The NPS disagrees with this finding. The vouchers listed NPS backcountry USA as the TDY site, neither
trips contained any mileage/driving. Both of these trips are literally trips into the "back country" meaning
that the traveler hiked, backpacked, climbed, or spelunked to his/her TDY site, and no reportable mode of
transportation was utilized.




                                                                                                               3
                                                                                              Attachment 2


The Draft Audit Report states that "the "Depmtmental Manual" (30 1-11.1) requires that travel to a TDY
location must meet a minimum distance of 50 miles from the traveler's normal commuting area in order
to qualify for per diem. Two vouchers were filed by travelers who traveled to TDY locations within 25
miles of their respective duty stations, but still improperly claimed lodging and subsistence pay." NPS
disagrees with the finding on one of these documents; the trip was from Frederick MD to Ocean Springs
MS, which is well over 25 miles.

Issues Found During Charge Card Statement Testing (Page 4)

The Draft Audit Repott states that "the only internal control mechanism used to ensure the validity of
travel charges was the required supervisory review of charge card statements." This is incorrect. The use
of and Electronic Travel System (ETS) is in itself an internal control mechanism to ensure the validity of
travel charges. Specifically, the fact that the ETS requires that Supervisors to review and approve both
the Travel Authorization and the Travel Voucher is proof that it is designed to require approval.

Missing Signatures (Page 5)

The Draft Audit Report states that "ten of the 46 statements selected for testing, over 22 percent, did not
have the required signatures of both the supervisor and traveler." NPS obtained and reviewed
documentation for those ten cardholder statements, and noted that eight of them did not have the required
signatures. Specifically, NPS obtained signed and dated statements from both
                                                    noting that both were signed and dated by both the
traveler and the supervisor within 30 days.

Unexplained Transactions (Page 5)

The Draft Audit Report states that the OIG "found 20 statements with expenses that were not reported in
GovTrip or did not match the expenses reported in GovTrip, with questioned costs totaling over $6, 700."
NPS obtained and reviewed documentation for those 20 cardholder statements, and noted that only five of
them had the specific errors noted by the OIG. Six of them had multiple errors noted by the OIG, but
NPS was able to obtain supporting documentation showing that some of the errors noted were not errors
at all. Finally, nine of them were not errors at all, and NPS obtained supp01ting documentation to prove
that. See Appendix B for details.

Regarding the $6,700 mentioned above, The Draft Audit Repott states the "due to restricted data access
issues, this figure is significantly understated and thus does not represent the total impact of the
questioned costs." NPS respectfully questions the accuracy of this statement, as without access, the OIG
has no way of knowing if the figure is significantly understated or not. Furthermore, many of the errors
or partial errors noted by NPS did not have any financial statement impact, and would only impact reports
generated by GovTrip. As noted above, the NPS in general does not use repotts generated by GovTrip; in
fact, the NPS utilizes a very limited number ofGovtrip Repotts (i.e., Unsubmitted Vouchers, Trip Status)
due to the reporting limitations in GovTrip. Instead, the NPS relies on its primary financial system for
reporting purposes. The NPS is hopeful that Concur Technologies will provide a much more reliable and
stable reporting tool for managing travel. Even so, the NPS does not anticipate relying on the reporting
tools in ETS2 for accounting purposes, since our financial system will, of course, remain the primary
system of record.



                                                                                                              4
                                                                                             Attachment 2


Conclusion and Recommendations (Pages 5 & 6)

The Draft Audit Report states that ETS-2 is not scheduled to come online for almost a year, and
accordingly the NPS will have "an opportunity to improve travel management practices under the current
GovTrip system." As of the date of this response to the Draft Audit Repott, ETS-2 is scheduled to come
online in less than six months, and it would not be cost effective to implement new changes at this point.

The NPS has noted that all of the recommendations in the Draft Audit Report are already required by NPS
policy, and is already considering what can be done to ensure that intemal controls surrou nding travel are
improved.

    1.  NPS is considering how it can still perform a pre-payment voucher audit when ETS-2 is
       implemented. Currently, NPS has been informed that the prepayment audit function may not be
       available at Go-Live; however, we have found it an effective way to prevent improper payments,
       and are considering other audit altematives while we wait for this functionality to be
       implemented.
    2. Once ETS-2 does offer the prepayment audit function, NPS is already considering expanding
       their current level of audit by both expanding the percentage tested and by lowering the dollar
       threshold. This will be considered within a year ofETS-2 implementation.
    3. Because the Department and Concur will only provide training for NPS trainers and not all users,
       NPS will need to fill the gap. Accordingly, the NPS-Ied training sessions will afford us the
       opp01tunity to reiterate and emphasize the roles and responsibilities associated with travel for
       travelers, travel arrangers, and approving officials.

The NPS Charge Card Lead has been in her position since April, 2012, and was not contacted by the OIG
during this review. The NPS Charge Card program is part ofthe Component Inventory that is required to
perform periodic OMB Circular A-123 reviews. As a result of the A-123 testing performed in the past by
both the NPS Charge Card Lead and by the Accounting Operations Center (Appendix A testing), the NPS
Charge Card program has been implementing a Corrective Action Plan. The three areas offocus are as
follows:

    1. Continue to provide training to personnel on charge card procedures;
    2. Require approving officials to be more diligent in monitoring and enforcing compliance with
       Interior's charge card policy; and,
    3. Continue to periodically test a sample of charge cards for compliance with Interior's charge card
       policies.

Attachments




                                                                                                              5
                                                           Attachment 3


Status of Recommendations

    Recommendations          Status             Action Required
                                         Provide a response indicating
                                                  concurrence or
                                                nonconcurrence. If
             1              Unresolved      concurrence is indicated,
                                           provide the target date and
                                         title of the official responsible
                                               for implementation.
                                         Provide a response indicating
                                                  concurrence or
                                                nonconcurrence. If
             2              Unresolved      concurrence is indicated,
                                           provide the target date and
                                         title of the official responsible
                                               for implementation.




                                                                         1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
